No. 20-62
IN THE

Supreme Court of the United States
————
PARENTS FOR PRIVACY, et al.,
v.

Petitioners,

WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
RESPONDENT DALLAS SCHOOL DISTRICT’S
BRIEF IN OPPOSITION
————
BLAKE H. FRY
Counsel of Record
MERSEREAU SHANNON LLP
111 SW Columbia Street
Suite 1100
Portland, Oregon 97201-5865
(503) 226-6400
bfry@mershanlaw.com
Counsel for Respondent
Dallas School District No. 2
October 23, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Respondent is a school district. A transgender
boy who was a student in the district asked whether
he could use the boys’ bathroom at his high school. The
district agreed that he could. Petitioners are some parents of other students in the district. They demanded
that the district force the transgender boy to use the
girls’ bathroom. Did the district violate these parents’
civil rights when it refused to force the transgender
boy to use the girls’ bathroom? Did the district violate
other students’ civil rights when it refused to force the
transgender boy to use the girls’ bathroom?

(i)

PARTIES TO THE PROCEEDINGS
The petition correctly states the names of all parties to the case.

(ii)

TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDINGS ......................... ii
TABLE OF AUTHORITIES ........................................v
INTRODUCTION ........................................................1
STATEMENT OF THE CASE .....................................4
A.

Factual Background ............................................4

B.

Proceedings Below ...............................................6

REASONS FOR DENYING THE PETITION ............8
I.

The substantive due process
claim Petitioners made on behalf of
students failed because it was not based
on the alleged deprivation of any
recognized fundamental right ............................9

II.

The substantive due process
claim Petitioners made on behalf of
the parents of students failed because
it was not based on the alleged deprivation
of any recognized fundamental right ...............14

III. Petitioners’ free exercise claim failed
because it was not based on the alleged
deprivation of their free exercise rights ...........17
(iii)

iv
TABLE OF CONTENTS (continued)

IV.

A.

Petitioners never alleged
or argued below that Respondent
prohibited them from exercising
their religious beliefs ................................18

B.

Petitioners only now argue
that Respondent prohibited
them from exercising their religion
from allegations they disavowed
to the lower courts ....................................20

The Title IX claim Petitioners made
on behalf of students failed because they
alleged no sexually hostile environment ..........23
A.

Petitioners pursued the Title IX
claim below exclusively under a
peer sexual harassment theory but
alleged no peer sexual harassment..........23

B.

Petitioners pursue their Title IX
claim under new theories of liability
that either ask this Court to
resolve hypothetical questions,
or that are wholly misconceived ..............24

CONCLUSION ...........................................................28

v
TABLE OF AUTHORITIES
CASES
Baldwin v. Reese,
541 U.S. 27 (2004) ............................................. 17
Bostock v. Clayton County,
140 S. Ct. 1731 (2020)....................................... 25
Brannum v. Overton County School Board,
516 F.3d 489 (6th Cir. 2008) ............................. 11
Clapper v. Amnesty International USA,
568 U.S. 398 (2013) ........................................... 12
Davis v. Monroe County Board of Education,
526 U.S. 629 (1999) ........................................... 23
Doe v. Boyertown Area School District,
897 F.3d 518 (3d Cir. 2018) ................................ 1
Employment Division v. Smith,
494 U.S. 872 (1990) ..................................... 18, 20
Fields v. Palmdale School District,
427 F.3d 1197 (9th Cir. 2005) ........................... 15
Ioane v. Hodges,
903 F.3d 929 (9th Cir. 2018) ............................. 11
Lyng v. Northwest Indian Cemetery
Protective Association,
485 U.S. 439 (1988) ..................................... 18, 19

vi
TABLE OF AUTHORITIES (continued)
Nevada Commission on Ethics v. Carrigan,
564 U.S. 117 (2011) ........................................... 17
North Carolina v. Rice,
404 U.S. 244 (1971) ........................................... 25
Pierce v. Society of Sisters,
268 U.S. 510 (1925) ........................................... 15
Safford Unified School District No. 1 v. Redding,
557 U.S. 364 (2009). .......................................... 13
Troxel v. Granville,
530 U.S. 57 (2000) ............................................. 16
West Virginia State Board of Education v.
Barnette,
319 U.S. 624 (1943) ........................................... 15
Wisconsin v. Yoder,
406 U.S. 205 (1972) ........................................... 15
York v. Story,
324 F.2d 450 (9th Cir. 1963) ............................. 10
STATUTES
20 U.S.C. § 1681......................................................... 22

INTRODUCTION
Five years ago, the respondent school district allowed a transgender boy to use the boys’ bathroom
and locker room at the high school he attended over
the objections raised by some district parents. These
parents formed a group called Parents for Privacy to
advance their views that multi-user bathrooms must
remain strictly segregated by sex. This group then
sued the district over the district’s refusal to accede to
its views on bathroom use. The complaint accordingly
asked for a court order forcing the transgender boy
back into the girls’ facilities.
The complaint made four claims of relevance to
support its requested relief. Three of these were based
on supposed rights secured by the Constitution, while
the last was brought under Title IX. The district court
dismissed these claims after finding that each was
fundamentally misconceived in one or more ways, and
that neither the Constitution, Title IX, nor any other
law could possibly entitle the parents to a court order
forcing a transgender child into bathrooms or locker
rooms that did not match their gender. The Ninth Circuit affirmed, largely adopting the district court’s reasoning.
There has only been one other circuit-level opinion that dealt with claims made by parents who objected because a school allowed a transgender child to
use the bathroom or locker room that matched their
gender. Just as happened here, that one other opinion
affirmed the district court’s dismissal of those claims.
See generally Doe v. Boyertown Area School District,
897 F.3d 518 (3d Cir. 2018), cert. denied, 139 S. Ct.
2636 (2019). (This Court subsequently denied a petition for review challenging that affirmance.)

2
Parents for Privacy as the Petitioners here therefore cannot and do not cite any circuit split involving
the dismissal of the kinds of claims they attempted in
their complaint. Instead, their petition for review tries
to manufacture splits by comparing the Ninth Circuit’s affirmance with decisions from other federal
courts of appeal in scenarios that are only putatively
analogous. The petition adopts a similar tactic in devising “conflicts” between the Ninth Circuit’s decision
and this Court’s precedent.
For example, Petitioners made a claim for an alleged due process violation of the right students have
to their bodily privacy. The petition characterizes the
Ninth Circuit as dismissing this claim after finding
that public school students do not enjoy any right to
bodily privacy. Whereas, by contrast, other courts have
held that even prisoners have that right. Incredulous
that the Ninth Circuit could have found that prisoners
have more rights than students, the petition for review asks this Court to resolve the discrepancy.
The petition has innumerable shortcomings
when it comes to identifying any of the “compelling
reasons” this Court’s Rule 10 says would warrant the
Court’s exercise of the discretion it has to grant review. Among other things, the complaint’s requested
relief is moot since the transgender boy graduated
long ago; the petition largely asks for simple error correction since at heart it just argues that the Ninth Circuit misapplied settled law to the set of facts before it;
and many of the arguments the petition makes, and
even the theories of liability it advances, were not
raised below let alone addressed by the lower courts.
But one shortcoming overwhelms all others. Petitioners continue to perpetuate the same mistakes of

3
law that doomed their claims in the first place. For example, the petition for review more-or-less gives an accurate description of how courts have assessed bodily
privacy claims made by prisoners. But Petitioners remain oblivious to what those claims are fundamentally about, and what that means when it comes to
their own bodily privacy claim.
Petitioners supported their bodily privacy claim
with allegations that the school district had created a
“risk” that the transgender boy and cisgender boys—
that is, fellow students—might see each other undressing. The claim failed for several reasons. For one,
the transgender boy and cisgender boys never actually
did see each other undressing. So even if the bodily
privacy right exists to protect against mere “opposite
sex nudity” as Petitioners believe, there was none.
But more to the point here, bodily privacy claims
involving prisoners are about the limits due process
places on the power of guards to demand to see prisoners naked. Thus Petitioners’ bodily privacy claim
failed because it was not based on allegations that any
school official had used his power to watch students
undressing.
The rest of Petitioners’ claims failed in the same
way: because they were all misconceived, the complaint never alleged or could have alleged facts to establish the elements of those claims. The petition asks
this Court to review the Ninth Circuit’s decision affirming the dismissal of their claims mostly by arguing that it created irreconcilable “conflicts” with
decisions from other circuit courts of appeal or this
Court’s precedent. However, the only conflicts are
those traceable to the various but basic flaws behind
each of Petitioners’ claims.

4
STATEMENT OF THE CASE
Factual Background

A.

The respondent school district operates the lone
high school in rural Dallas, Oregon. In September
2015, a student at that school who was born and who
remained biologically female publicly identified as a
boy. He then asked school officials whether he could
use the boys’ bathroom and locker room. (Pet. App.
204a–206a.) The district agreed to his request over the
objections raised by some parents of other students in
the district. Thereafter and until he graduated three
years later, the transgender boy1 used the boys’ bathroom and locker room—that is, the facilities that
matched his gender—without incident. (Pet. App.
209a–210a, 259a–262a.)
Despite a complaint that runs about 17,000
words, the paragraph above lists the only alleged facts
that are relevant to the dismissed claims for which Petitioners seek review. Suffused throughout the petition, however, are charges about how the district
“compelled” students to “expose their bodies to opposite sex students,” and to “embrace beliefs” that were
“at odds” with their religion, etc.
The district court allowed a public interest group
named Basic Rights Oregon to intervene in the suit as
a defendant. Basic Rights Oregon, or BRO, has filed

A transgender person does not identify with the gender
that is typically associated with their sex at birth, while a cisgender person does. For example, a transgender boy is someone
who identifies as being a boy despite being born biologically female. A transgender person is referred to by the pronouns that
match the gender with which they identify.
1

5
an opposition brief too. That opposition brief addresses these charges. In sum, BRO explains that not
only are these charges entirely new, they contradict
Petitioners’ prior allegations and admissions. No student was “compelled” to do anything, except perhaps
to refrain from harassing the transgender boy. Again,
the only relevant event the complaint alleged was that
the district allowed the transgender boy to use the
boys’ bathroom and locker room.
Meanwhile, BRO explains, the boys’ bathroom
and locker room at Dallas High School are typical in
that they include private toilet and shower stalls. The
school district also gave cisgender boys the option to
use several other single-occupancy facilities not normally available for students if, despite the stalls, they
still had privacy concerns about being in the same
bathroom or locker room at the same time as the
transgender boy. And of note, BRO points out that Petitioners conceded during litigation that none of their
children ever saw the transgender boy undressing or
using the bathroom, or vice versa. In fact, they never
even “encountered” the transgender boy in the bathroom or locker room before he graduated.
Petitioners admittedly based the complaint’s
claims only on the “risk” that cisgender boys could
have encountered the transgender boy in the bathroom or locker room, and they then could have seen
each other undressing or using the bathroom. In other
words, all the claims were based on Petitioners’ objection to simply the transgender boy’s “presence” in the
boys’ bathroom and locker room since that flouted
their belief that those facilities must be kept strictly
segregated by sex.

6
B.

Proceedings Below

The parents who objected to the transgender boy
using the boys’ bathroom and locker room formed a
group called Parents for Privacy and, along with five
individuals, sued the respondent school district in November 2017. The petition for review was filed with
this Court on behalf of Parents for Privacy, but only
three of the original five individual plaintiffs. Those
three are the Gollys and Nicole Lillie. (Pet. ii.) As alleged in the complaint, the Gollys are the parents of a
cisgender girl who attended high school with the
transgender boy, and a student who was in middle
school when the transgender boy was in high school.
Obviously, neither of the Gollys’ children were affected
by the district’s decision to allow the transgender boy
to use the boys’ bathroom and locker room. Meanwhile, the complaint made no allegations about Lillie
whatsoever. For that reason, the district court dismissed her from the suit. (Pet. App. 85a.)
The defendants named in the complaint included
the respondent school district. The complaint also
named many other defendants besides the school district, like the federal government. Later, the district
court allowed Basic Rights Oregon, a non-profit public
interest organization, to intervene as a defendant.
(Pet. App. 82a.)
The complaint’s prayer for relief asked the court
to order the school district to “permit only biological
males to enter and use district’s boys’ restrooms,
locker rooms and showers.” (Pet. App. 254a–257a.) The
complaint made eight claims to support this requested
relief. However, Petitioners are now only pursuing
four of those claims, and they are only pursuing those
claims against the school district.

7
Three of these claims were constitutional claims.
Two were made under the Due Process Clause of the
Fourteenth Amendment. The first was nominally
made on behalf of male, cisgender classmates of the
transgender boy. The complaint alleged that they suffered a substantive due process violation of their fundamental right to “bodily privacy.” This claim was
supported by allegations that the school district had
created a never-realized “risk” that the transgender
boy and cisgender boys might see each other undressing or using the bathroom. (Pet. App. 233a–237a.)
The second due process claim was nominally
made on behalf of their parents. The complaint alleged
that they suffered a substantive due process violation
of their fundamental right to “direct the education and
upbringing of their children.” This claim was supported by allegations that the school district violated
that right when it decided, against some parents’
wishes, to let the transgender boy use the boys’ bathroom and locker room. (Pet. App. 238a–241.)
The complaint’s third constitutional claim was
made under the Free Exercise Clause. This claim was
supported by allegations that Petitioners have religious beliefs wherein for reasons of “modesty” multiuser bathrooms and locker rooms must remain strictly
segregated by sex. The school district kept Petitioners
from being able to practice these beliefs about modesty, and thereby violated their free exercise rights,
when it allowed the transgender boy to use the boys’
bathroom and locker room. (Pet. App. 249a–251a.)
Finally, the complaint made a claim under Title IX. Petitioners supported this claim by alleging
that the transgender boy’s mere “presence” in the

8
boys’ bathroom and locker room generated an unlawful, “sexually harassing hostile environment” for the
students at his school. (Pet. App. 241–247a.)
All the defendants moved to dismiss the complaint in its entirety for failure to state claims on
which relief could be granted. On July 24, 2018, the
district court found that the complaint indeed failed
to state any claims for relief. It also found that there
was no way the complaint could be amended to entitle
Petitioners to an order forcing the transgender boy
into the girls’ bathroom and locker room. The court
therefore granted the defendants’ motions, and dismissed the complaint with prejudice. (Pet. App. 78a–
172a.)
Petitioners appealed the judgment dismissing
their complaint with prejudice to the Ninth Circuit.
The Ninth Circuit agreed with the district court’s reasoning, likewise found that each of the claims were fatally flawed, and therefore affirmed. (Pet. App. 1a–
77a.) Petitioners did not then file a petition for a rehearing or a rehearing en banc.
REASONS FOR DENYING THE PETITION
The petition for review pursues four of the claims
made in Petitioners’ complaint. As described, those
claims include two substantive due process claims,
one nominally made on behalf of cisgender boys, the
other their parents. The third was a free exercise
claim. And the fourth claim was brought under Title
IX. The district court dismissed these claims after
finding that they were based on misunderstandings or
misapplications of the law, and were therefore legally
deficient. The Ninth Circuit agreed and affirmed.

9
Despite couching its request for review in terms
meant to satisfy the “compelling” Rule 10 reasons that
would typically warrant the grant of review, the petition really just argues that the complaint’s claims
were not, in fact, legally deficient. The petition’s transparent request for simple error-correction should be
grounds enough to deny it. But in addition and as explained below, the Ninth Circuit was correct to find
that Petitioners fundamentally misconceived each of
the claims whose dismissal they are asking this Court
to review.
I.

The substantive due process
claim Petitioners made on behalf of
students failed because it was not
based on the alleged deprivation of
any recognized fundamental right

Petitioners made a substantive due process
claim under the Due Process Clause for an alleged violation of the “fundamental right to bodily privacy.”
The complaint described this right as simply protecting against “opposite sex nudity.” By allowing the
transgender boy to use the boys’ bathroom and locker
room, the school district created a “risk” that he might
see cisgender boys undressing. In creating this “risk”
the school district thereby violated the right. (Pet.
App. 233a–237a.)
As covered above, the petition changes what the
complaint originally alleged from the district having
created a “risk” that students might see each other undressed, to the district having “compelled [students] to
fully undress…in the presence of a student of the opposite sex.” (Pet. 21.) Not only did Petitioners never

10
tell the courts below that they could amend the complaint to add any such allegations, but they conceded
the impossibility.
In any event, the petition characterizes the
Ninth Circuit as basing its decision to affirm the dismissal of the bodily privacy claim on a holding that
public school students do not enjoy any such right.
(Pet. 18.) The petition goes on to argue that this decision “conflicts” with decisions from other cases which
held, to the contrary, that students—and even prisoners(!)—have a right to bodily privacy that must be
weighed against the necessity of government action
intruding on that right. Because the Ninth Circuit
mistakenly held that students have no right to bodily
privacy, it never balanced the school district’s intrusion on that right with its justification for the intrusion. Indeed, if it had, the Ninth Circuit would have
found the justification wanting.
Students have a fundamental right to bodily privacy like anyone else does, and neither the district
court nor the Ninth Circuit held otherwise. Rather,
they explained that the right as protectable through a
substantive due process claim derives from the Fourth
Amendment’s guarantee against “unreasonable
searches” at the hands of government officials. Like so
many other fundamental rights, the protection the
right is afforded by substantive due process is interstitial. Sometimes an official’s intrusion on our fundamental right to bodily privacy does not qualify as a
“search” and so cannot be vindicated as it normally
would through the Fourth Amendment.
To fill this gap, courts have found the right to also
be protectable by substantive due process. See, e.g.,
York v. Story, 324 F.2d 450 (9th Cir. 1963). As such, the

11
Due Process Clause protects the sight of our naked
bodies, for example, from the prying eyes of a government official when the Fourth Amendment does not
apply because there was no search. Cf. Brannum v.
Overton County School Board, 516 F.3d 489, 494 (6th
Cir. 2008) (explaining that bodily privacy claims are
preferably resolved under the Fourth Amendment
when possible). Meanwhile, the right is implicated regardless of the respective sexes of the leering official
and the subject he leered. Ioane v. Hodges, 903 F.3d
929, 935 n. 2 (9th Cir. 2018) (surveying cases to make
this point). Though just as in a Fourth Amendment
analysis, if the official and the subject are of the opposite sex then the official’s justification for his intrusion
must typically be that much stronger to avoid a constitutional violation. Id.
Given the above, Petitioners therefore misconceived their bodily privacy claim for at least two, basic
reasons.
One, Petitioners did not base the claim on any
allegation that a school official had, for example, lasciviously videotaped students changing clothes. See,
e.g., Brannum, 516 F.3d at 491–92 (involving a bodily
privacy claim resolved under the Fourth Amendment
that was based on similar allegations). Rather, the
claim challenged students’ proximity to a fellow classmate in the school bathroom and locker room. In effect,
the complaint imagines that the bodily privacy right
means that the government must police its facilities
to ensure that opposite-sex citizens do not see each
other naked. But no case has ever described the bodily
privacy right as limiting anything other than the
power of an official himself to invade a subject’s bodily
privacy by viewing the subject at least partially unclothed.

12
And two, Petitioners never suffered a redressable injury even under their mistaken notion that the
government must ensure that opposite-sex citizens do
not see each other naked.2 Clapper v. Amnesty International USA, 568 U.S. 398, 409 (2013) (describing
that a plaintiff has no standing to pursue a claim unless he has suffered an “actual” or “certainly impending” injury). As explained, the complaint’s bodily
privacy claim was based only on allegations that the
transgender boy might have, but never did, observe
cisgender boys undressing or using the bathroom.
The petition for review cites several cases to support its argument that the Ninth Circuit erred in affirming the dismissal of the bodily privacy claim. But
even their own description of these cases belies the ostensible reason Petitioners cited them. While these
cases do concern bodily privacy rights, each only
serves to highlight where Petitioners’ attempted bodily privacy claim fails.
For instance, the petition describes a string of
Fourth Amendment cases deciding the constitutionality of school searches. Two involve school drug testing
where a school official accompanied a student of the
same sex to the bathroom to ensure the fidelity of
urine samples. (Pet. 19–21.) In both cases this Court
held that the privacy intrusion did not violate the
Fourth Amendment because the school’s interest in
conducting the searches outweighed the students’ interest in maintaining their privacy.
Petitioners praise these cases as giving examples

That is, apart from the fact that none of the identified Petitioners were male, cisgender classmates of the transgender boy.
2

13
of the kinds of reasons sufficient to justify a school official’s intrusion of a student’s bodily privacy. This
stands in contrast, the petition argues, to the insufficient reason the school district gave for why it allowed
the transgender boy to use the bathroom and locker
room that matched his gender. But Petitioners completely miss the broader context and the implications
that has for their claim: these cases explore the limits
the Constitution places on an official’s power to invade
a person’s bodily privacy through a search.
Likewise, the petition describes at length Safford
Unified School District No. 1 v. Redding, 557 U.S. 364
(2009). In Safford, the petition reports, this Court
found that “a school violated a student’s right to bodily
privacy when it compelled her to expose her private
parts to two female staff members as part of a search
for contraband prescription drugs.” (Pet. 22.) The description is accurate, though it neglects to say that the
bodily privacy right was vindicated through the
Fourth Amendment, not the Due Process Clause of the
Fourteenth Amendment. But again, Petitioners miss
the case’s salient attributes: this Court invalidated
the search of a student by a school official and where,
incidentally, the student and the official were of the
same sex.3
This section of the petition continues in the same
vein with cites to several federal courts of appeal cases
on the bodily privacy rights of prisoners. (Pet. 29–30.)
As explained, the bodily privacy right is implicated regardless of the respective sexes of the official and the subject. Assume
for the sake of argument that Petitioners were otherwise correct
that the government must ensure that fellow citizens never see
each other undressing. This would lead to the nonsense result
that the government must police its bathrooms and locker rooms
to keep people of the same sex from seeing each other undressing.
3

14
Surely if prisoners have bodily privacy rights, the petition argues, then so too must students. But just like
the cases involving the bodily privacy rights of students, these cases dealt with the question of whether
and when guards may constitutionally strip-search
prisoners and the like. These cases and all the others
Petitioners cite therefore do not “conflict” in any way
with the Ninth Circuit’s decision to affirm the dismissal of the complaint’s bodily privacy claim.
II.

The substantive due process claim
Petitioners made on behalf of the
parents of students failed because it was
not based on the alleged deprivation
of any recognized fundamental right

Petitioners made a substantive due process
claim for a deprivation of the fundamental right that
belongs to parents to decide how their children should
be raised. To support this claim, the complaint alleged
that the school district’s unilateral decision to allow
the transgender boy to use the boys’ bathroom and
locker room usurped what should have been a parent’s
exclusive role to choose whether their sons would
“risk” being “exposed” to a transgender boy in those
facilities. (Pet. App. 238a–241a.) The claim was nominally made on behalf of the parents of cisgender boys
even though none were specifically identified in the
complaint, much less named as an individual plaintiff.
Parents have a fundamental right to make decisions about how to raise their children, which includes
a right to decide how they should be educated. Under
that right, the state cannot prohibit parents from
sending their children to parochial or other private
schools, or from educating their children at home.

15
Likewise, the state cannot make parents send their
children to public school. See generally Pierce v. Society of Sisters, 268 U.S. 510 (1925). But parents who do
elect to send their children to public school have no
constitutional right to dictate what the school teaches
their children, or how the school operates. See, e.g.,
Fields v. Palmdale School District, 427 F.3d 1197,
1206–17 (9th Cir. 2005).
In dismissing and affirming the dismissal of the
due process claim made by the parents, the district
court and the Ninth Circuit correctly explained the
contours of the right parents have to make decisions
about their child’s education. (Pet. App. 44a–57a,
162a–165a.) Namely, if a public school teaches or otherwise operates contrary to a parent’s wishes, then
due process affords that parent only the right to remove their child from public school so that he can be
educated to the parent’s liking.
Petitioners argue that the Ninth Circuit’s explanation on the limits of a parent’s right to decide how
their children should be raised “conflicts with” this
Court’s precedent. (Pet. 11–17.) However, none of the
supposedly conflicting precedent the petition cites involves the claim at issue here. That is, a substantive
due process claim based on allegations that a public
school violated a parent’s fundamental right to decide
how their children should be raised through some aspect of its curriculum or operation.
For example, West Virginia State Board of Education v. Barnette, 319 U.S. 624 (1943), invalidated on
First Amendment grounds a state requirement, enforceable through various penalties, that all students
salute the flag. In Wisconsin v. Yoder, 406 U.S. 205
(1972), this Court held that a state infringed on the

16
free exercise rights of a religious sect’s members by
making formal education (via public school or otherwise) compulsory past the 8th grade. And in Troxel v.
Granville, 530 U.S. 57 (2000), this Court struck down
a state law that potentially gave non-parents visitation rights over the objection of the parents. And so on.
In fact, this Court has never addressed whether
and when parents would have a fundamental due process right to dictate a public school’s curriculum or its
operation. But as the cases the Ninth Circuit cited in
its opinion indicate, the courts of appeal are unanimous that the fundamental right that belongs to parents to raise their children as they see fit does not
extend that far.
The petition for review also alleges that the
transgender boy’s mother objected to the school district’s decision to allow him to use the boys’ bathroom
and locker room. Therefore, the petition argues, the
school district infringed on her fundamental right as
a parent to make decisions for her child on which
bathroom and locker room she wanted him to use.
(Pet. 15–17.)
However, the transgender boy’s mother was not
a plaintiff and so is not included among the Petitioners, and the complaint makes no allegations whatsoever about what she wanted for her child. Likewise
and regardless of what was included in the complaint,
Petitioners did not pursue a due process claim on her
behalf in their briefing to the courts below nor, again,
did their briefing include any allegations about which
bathroom or locker room the transgender boy’s mother
preferred for her son.
Of course, the courts below did not address

17
whether the mother stated or could have stated a substantive due process claim from allegations that she
would have liked for the school district to force him to
use the girls’ bathroom and locker room. This Court
normally will not consider new arguments that either
were not pursued by petitioners in the courts below, or
were not addressed by those courts. See, e.g., Nevada
Commission on Ethics v. Carrigan, 564 U.S. 117, 128
(2011); Baldwin v. Reese, 541 U.S. 27, 34 (2004).
Regardless, if the mother disagreed with the
school district’s decision to allow her son to use the
boys’ bathroom and locker room, then she had a fundamental right to remove her child from its school.
But she had no more of a right to dictate transgender
bathroom use in her son’s school than any other parent.
III. Petitioners’ free exercise claim failed
because it was not based on the alleged
deprivation of their free exercise rights
Petitioners made a claim under the Free Exercise Clause. They supported the claim by alleging that
the school district’s decision to allow the transgender
boy to use the boys’ bathroom and locker room kept
them from “practicing” their religious beliefs about
what “modesty” requires. Under those beliefs, members of “the opposite biological sex” are not supposed
to be in each other’s “presence” while they are undressing or using the bathroom. (Pet. App. 249a–
251a.)

18
A.

Petitioners never alleged or argued
below that Respondent prohibited them
from exercising their religious beliefs

The Free Exercise Clause says that it protects
against government action “prohibiting the free exercise” of religion. The “crucial word in the constitutional text is ‘prohibit.’” Lyng v. Northwest Indian
Cemetery Protective Association, 485 U.S. 439, 451
(1988). In context, prohibit means that a plaintiff who
wants to state a free exercise claim must identify, as
the first element of his claim, how the government
barred him from acting, or made him act, through
some mandate backed by the government’s coercive
power. Whereas a plaintiff who merely alleges that he
was unable to practice his religion as the byproduct of
some government decision which did not itself mandate his action or inaction has failed to make out the
first element of a free exercise claims. Two cases illustrate the difference.
In Employment Division v. Smith, 494 U.S. 872
(1990), the plaintiffs had challenged a law which
banned a certain drug. They alleged that the law violated their free exercise rights because they needed to
use the drug in their religious ceremonies. Ultimately
this Court held that the law did not violate the plaintiffs’ free exercise rights because it did not satisfy the
second element necessary to make out a free exercise
claim. However, the law clearly satisfied the first element inasmuch as it prohibited, under threat of criminal penalties, a practice the plaintiffs alleged was
necessary to their religion.
In Lyng, by contrast, the plaintiffs had challenged a U.S. Forest Service decision to build a road

19
and to permit timber harvesting in a certain wilderness by alleging that this wilderness was critical to
their religious practices. Lyng, 485 U.S. at 442–43.
This Court presumed that the Forest Service’s decision would have “devastating effects” on the wilderness and hence the plaintiffs’ religious practices. Id. at
449, 451. However, the decision was not any kind of
law that “coerced” the plaintiffs into doing or refraining from any act whatsoever; in other words, the decision itself did not mandate the plaintiffs’ action or
inaction. Id. at 449–50. Rather, the unfortunate effects
the decision had on the plaintiffs’ religious practices
were only “incidental” to that decision. Id. at 450. Thus
the plaintiffs failed to state a free exercise claim because they had not properly alleged that the Forest
Service had prohibited them from practicing their religion. Id. at 452.
Petitioners’ free exercise claim obviously suffered from the same fatal defect as the claim made by
the plaintiffs in Lyng. Petitioners alleged that the decision they have challenged prevented them from
practicing their religious beliefs about “modesty.” But
the school district’s decision was not, for example, a
law that required cisgender and transgender students
to change clothes in front of each other under threat
of criminal penalties. Again, the decision merely allowed the transgender boy to use the bathroom or
locker room that matched his gender.
As in Lyng, therefore, Petitioners’ free exercise
claim failed because the alleged consequences the
school district’s decision had on their religious practices were incidental to a decision that came with no
government-backed proscription or compulsion directed at Petitioners themselves. The religious objections Petitioners had to the transgender boy’s use of

20
the boys’ bathroom and locker room, untethered to an
actual prohibition of their religious practices, did not
give them a claim under the Free Exercise Clause to
challenge his use of those facilities.
B.

Petitioners only now argue that
Respondent prohibited them from
exercising their religion from allegations
they disavowed to the lower courts

In Smith, this Court held that the drug laws the
plaintiffs challenged did not violate their free exercise
rights because, though they prohibited the plaintiffs
from fully practicing their religion, those laws were
“neutral” and “generally applicable.” That is, the drug
laws were not enacted with the aim of restricting or
burdening any religious beliefs or practices, and they
did not on their face or in their enforcement selectively
restrict or burden any religious beliefs or practices.
Thus the plaintiffs’ religion could not excuse them
from having to comply with the drug laws just the
same as everyone else. Smith, 494 U.S. at 878–79.
This Court in Smith went on to say, however, that
if a law did have the effect of prohibiting a plaintiff
from practicing his religion, and it was not neutral and
generally applicable, then the plaintiff would be excused from compliance if the law was not the least restrictive way to satisfy a compelling government
interest. Id. at 882–89. Petitioners’ arguments to the
courts below took this cue from Smith.
Namely, they glossed over the first element of
any free exercise claim which, as described, requires a
plaintiff to properly allege that the government pro-

21
hibited him from practicing his religion. Instead Petitioners only made arguments that nominally went to
the second element of any free exercise claim. Thus
Petitioners argued that the school district’s decision to
allow the transgender boy to use the boys’ bathroom
and locker room was not neutral and generally applicable and, moreover, that it failed a strict-scrutiny
standard or review.
Though Petitioners had glossed over the first element of any free exercise claim, both the district
court and the Ninth Circuit addressed the claim on
the terms in which Petitioners presented it. In short,
the courts explained that their free exercise claim
failed because the complaint did not allege facts showing that the school district decided to allow the
transgender boy to use the boys’ bathroom and locker
room as a way to target Petitioners’ religious beliefs or
practices. Rather, the district’s decision was inarguably motivated by the goal of ensuring that the
transgender boy had access to a bathroom or a locker
room that suited his gender. The conclusion that the
school district had not targeted Petitioners’ religious
beliefs or practices remained unaffected, the courts
continued, by the fact that the district made and stuck
to its decision despite the religious objections Petitioners raised. (Pet. App. 57a–75a, 166a–169a.)
Petitioners argue for the first time in their petition for review that the school district actually did
“compel” them to “act” contrary to their religious beliefs. The petition alleges, for example, that the school
district “compelled” students “to expose their bodies
and be exposed to bodies of opposite sex classmates.”
(Pet. 33.) As covered above, nothing of the kind happened by Petitioners’ own previous admissions and,
again, the decision Petitioners are challenging on its

22
face did nothing more than allow the transgender boy
to use the boys’ bathroom and locker room. Until their
petition for review, the religious objections Petitioners
had to that decision were based only the “risk” it created that students of the opposite sex might “expose
their bodies” to each other.
Regardless and as described above, this Court
normally will not consider new arguments that either
were not pursued by petitioners in the courts below, or
addressed by those courts. Here, Petitioners never argued that the school district prohibited them from exercising their religious beliefs by “compelling” them to
“act” contrary to those beliefs. Rather, their arguments
were focused exclusively on why the decision they
challenged was supposedly not neutral and generally
applicable. Likewise, the courts below never addressed whether Petitioners satisfied the first element
of any free exercise claim. Rather, they exclusively rebutted Petitioners’ arguments that nominally went to
the second element of a free exercise claim.
Of course, the petition for review also argues that
the Ninth Circuit erred in finding that their complaint
failed to allege facts to satisfy this second element. In
essence, Petitioners argue that the school district’s decision to allow the transgender boy to use the boys’
bathroom and locker room was “hostile” to their religious beliefs, and so not neutral and generally applicable, because the district refused to accede to their
religious-based objections. (Pet. 31–35.)
That argument completely misconceives this element of a free exercise claim. As Smith and other
cases explain, including those Petitioners themselves
cite, government action is not neutral and generally
applicable if it actively targets a religious belief or

23
practice. Whereas, here, Petitioners fundamentally
based their free exercise claim on allegations that the
school district ignored their religious beliefs and practices when it allowed the transgender boy to use the
boy’s bathroom and locker room.
IV. The Title IX claim Petitioners made on
behalf of students failed because they
alleged no sexually hostile environment
Title IX provides that “no person…shall, on the
basis of sex, be excluded from participation in, be denied the benefits of, or be subjected to discrimination
under any education program or activity” offered by a
public school. 20 U.S.C. § 1681(a).
A.

Petitioners pursued the Title IX
claim below exclusively under a
peer sexual harassment theory but
alleged no peer sexual harassment

Though Title IX only prohibits a school’s intentional discrimination by a school itself, a school can
nonetheless be liable under Title IX for not acting to
stop known “student-on-student” sexual harassment
it had the ability to control. Davis v. Monroe County
Board of Education, 526 U.S. 629, 637–38 (1999). To be
liable under Title IX for peer sexual harassment, a
school must have had actual knowledge of, and been
deliberately indifferent to, in-school harassment “on
the basis of sex” that was so severe, pervasive, and objectively offensive that it deprived the victim of access
to an education. Id. at 641–53.
Petitioners’ complaint and briefing to the lower

24
courts pursued a Title IX claim under a peer sexual
harassment theory. To support their Title IX claim under that theory, Petitioners alleged and argued that
the transgender boy’s mere “presence” in the boys’
bathroom and locker room equated to the unlawful
“sexual harassment” of any cisgender boys who might
have been there too. (Pet. App. 242a–247a.)
The word harassment means something like conduct that is intentionally and repeatedly directed at
someone, and that disturbs them and serves no legitimate purpose. Sexual harassment, then, is harassing
conduct perpetrated because of the victim’s sex. As the
district court held, (Pet. App. 140a–150a), and as the
Ninth Circuit affirmed, (Pet. App. 36a–44a), Petitioners’ complaint failed to state a Title IX claim for peer
sexual harassment because it did not allege that the
transgender boy did anything in the boys’ bathroom or
locker room but mind his own business. Meanwhile,
Petitioners never pointed to any allegations of actual
harassment they could have added to their complaint
if given the chance to amend. They instead insisted
that their complaint in its current form sufficed to
state a viable Title IX claim.
B.

Petitioners pursue their Title IX claim
under new theories of liability that either
ask this Court to resolve hypothetical
questions, or that are wholly misconceived

The petition for review does not argue whether
the complaint stated a viable Title IX claim under a
peer sexual harassment theory. Rather, Petitioners
ask this Court to decide whether the school district
lawfully could have refused to allow the transgender
boy to use the boys’ bathroom under Title IX. (Pet. 35–

25
38.) Of course, Petitioners sued the respondent school
district because they were aggrieved by its decision to
allow the transgender boy to use the boys’ bathroom
and locker room. Petitioners are thus asking this
Court to grant review to decide what Title IX would
say about a hypothetical scenario.
Article III of the Constitution restricts the judicial power of the United States only to “cases” and
“controversies.” Federal courts therefore cannot give
advisory opinions on “what the law would be upon a
hypothetical state of facts.” North Carolina v. Rice, 404
U.S. 244, 246 (1971). This Court accordingly cannot
grant review to decide whether the respondent school
district lawfully could have, despite Title IX, refused
to allow the transgender boy to use the boys’ bathroom
and locker room.
In fact, Petitioners also argue that this Court
should grant review to resolve their Title IX claim under an entirely new theory of liability. This new theory
of liability is premised on the idea that the Ninth Circuit’s decision on whether Petitioners’ complaint
stated a Title IX claim “conflicts” with Bostock v. Clayton County, 140 S. Ct. 1731 (2020).
In Bostock, this Court held that laws like Title
VII or Title IX that prohibit discrimination “on the basis of sex” cover discrimination against someone because of their sexual orientation or their status as a
transgender person. Petitioners argue that the school
district treated cisgender students less favorably than
the transgender boy because it gave only him the option to use either the boys’ or the girls’ bathrooms and
locker rooms. (Pet. 39.) Citing Bostock, Petitioners argue that this amounts to unlawful sex discrimination
since the school district treated the cisgender students

26
less favorably than the transgender boy, and it did so
solely because of their status as cisgender persons.
Petitioners face four insurmountable problems
in asking the Court to grant review to consider this
new theory of liability derived from their reading of
Bostock.
First, the premise of this new theory of liability
is false. Petitioners seem to think that the school district allowed the transgender boy to use whichever
bathroom he wanted as suited his mood or convenience in the moment. However, the school district did
not give the transgender boy unfettered access to
twice as many bathrooms and locker rooms as cisgender students. Rather, the district allowed the
transgender boy to use only the bathroom or locker
corresponding to his gender. (Pet. App. 259a, 261a.)
The transgender student identified as a boy and, according to the complaint, thereafter he only used the
boys’ bathroom and locker room. That placed him on
equal footing with cisgender students: the school district allowed both he and cisgender students to use the
bathroom or locker room corresponding to their gender.
Second, as described, Petitioners pursued a Title
IX claim in their complaint and briefing below under
a peer sexual harassment theory. They never pursued
a Title IX claim under a theory of liability whereby
cisgender students were the victims of unlawful discrimination because they were not allowed to use both
the boys’ and the girls’ bathrooms and locker rooms.
For that reason, the courts below did not hold one way
or another whether such a theory of liability was viable under Title IX. As listed above, this Court normally

27
will not consider new arguments, much less new theories of liability, that either were not pursued by petitioners in their briefing below, or were not addressed
by the lower courts. Practically, the Court cannot
grant review on a theory of liability it normally would
not consider if it did grant review.
Third, Petitioners misconceive what anti-discrimination laws guarantee. They do not prohibit
mere differential treatment for its own sake. Rather,
they prohibit differential treatment which has the effect of depriving members of the protected class equal
access, or equal opportunities, as compared to members outside that protected class. Davis, for example,
turns on this distinction: the differential treatment of
a female student compared to her male counterparts
through sexual harassment is only actionable under
Title IX once it crosses a threshold and becomes differential treatment that also has the effect of denying
her equal access to an education. So even if the school
district here had allowed the transgender boy to use
whichever bathroom suited him in the moment, Petitioners failed to state a Title IX claim because they
never alleged that cisgender students’ bathroom
needs remained unsatisfied because they were not
given that same option.
Finally, Petitioners did not sue the school district
because they want all students to be able to use both
the boys’ and girls’ bathrooms and locker rooms regardless of their sex. In fact, Petitioners’ entire suit is
based on their fundamental opposition to that very
idea. They believe that schools must keep multi-user
bathrooms and locker rooms strictly segregated by
sex. This is reflected in the relief Petitioners sought in
their complaint. Of course, their prayer did not ask for
an order allowing cisgender students to use both the

28
boys’ and girls’ bathrooms so that they received the
same privilege they imagined was granted to the
transgender boy. The prayer instead asked for the opposite: a court order forcing all students to use only
the bathroom which corresponds to the gender typically associated with their sex at birth.
Petitioners therefore are not using Title IX to ensure that they have equal access to bathrooms and
locker rooms as compared to members outside their
protected class. Rather, they are trying to use Title IX
to take away something which the school district
granted the transgender boy to ensure that he was not
denied equal access to bathrooms or locker rooms just
because his gender did not match the gender typically
associated with his sex at birth. Petitioners’ Title IX
claim is therefore antithetical to what Title IX was enacted to guarantee.
CONCLUSION
For the reasons given above, the Dallas School
District No. 2 respectfully requests that this Court
deny Petitioners’ Petition for Writ of Certiorari.
Respectfully submitted,
Blake H. Fry
Counsel of Record
MERSEREAU SHANNON LLP

111 SW Columbia Street, Suite 1100
Portland, Oregon 97201-5865
bfry@mershanlaw.com
(503) 226-6400
Counsel for Respondent
Dallas School District No. 2

